<html>
<title> - SUPERCOMPUTING AND AMERICAN TECHNOLOGY LEADERSHIP</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      SUPERCOMPUTING AND AMERICAN
                         TECHNOLOGY LEADERSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 28, 2015

                               __________

                           Serial No. 114-03

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://science.house.gov
       


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-881PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.          ZOE LOFGREN, California
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL                    FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       SUZANNE BONAMICI, Oregon
MO BROOKS, Alabama                   ERIC SWALWELL, California
RANDY HULTGREN, Illinois             ALAN GRAYSON, Florida
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                KATHERINE M. CLARK, Massachusetts
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas , Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ERIC SWALWELL, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
BARBARA COMSTOCK, Virginia           KATHERINE M. CLARK, Massachusetts
DAN NEWHOUSE, Washington             EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas
                            C O N T E N T S

                            January 28, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairwoman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     6
    Written Statement............................................     7

                               Witnesses:

Mr. Norman Augustine, Board Member, Bipartisan Policy Center
    Oral Statement...............................................     9
    Written Statement............................................    12

Dr. Roscoe Giles, Chairman, DOE Advanced Scientific Computing 
  Advisory Committee
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. David Turek, Vice President, Technical Computing, IBM
    Oral Statement...............................................    50
    Written Statement............................................    52

Dr. James Crowley, Executive Director, Society for Industrial and 
  Applied Mathematics
    Oral Statement...............................................    59
    Written Statement............................................    61

Discussion.......................................................    66

             Appendix I: Answers to Post-Hearing Questions

Mr. Norman Augustine, Board Member, Bipartisan Policy Center.....    76

Dr. Roscoe Giles, Chairman, DOE Advanced Scientific Computing 
  Advisory Committee.............................................    77

Mr. David Turek, Vice President, Technical Computing, IBM........    82

Dr. James Crowley, Executive Director, Society for Industrial and 
  Applied Mathematics............................................    86

 
           SUPERCOMPUTING AND AMERICAN TECHNOLOGY LEADERSHIP

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2015

                  House of Representatives,
                                     Subcommittee on Energy
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Weber. Well, good morning and welcome to today's 
Energy Subcommittee hearing titled ``Supercomputing and 
American Technology Leadership.''
    The Committee will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Without objection, the Chair authorizes the participation 
of Mr. Lipinski, Mr. Swalwell, Mr. Grayson, Ms. Esty, Mr. 
Veasey, and Ms. Clark for today's hearing. And I understand 
Ranking Member Johnson will serve as the Ranking Minority 
Member today and give an opening statement a little later.
    In front of you are packets containing the written 
testimonies, biographies, and truth-in-testimony disclosures 
for today's witnesses. And I recognize myself for five minutes 
for an opening statement.
    At the outset let me say that this is my first Committee 
hearing as a Chairman of this Subcommittee and it is truly an 
honor to be selected to serve in this capacity. And I want to 
say a personal thanks to Chairman Lamar Smith for his help and 
his guidance. He has been just a stalwart friend of mine. I 
really appreciate that.
    This Committee will tackle a number of important issues 
related to America's competitiveness and energy future, and I 
am excited to be part of these important discussions.
    Today, we are going to hear from a distinguished panel of 
witnesses about the importance of high-performance computing to 
American technological competitiveness, specifically focusing 
on the Department of Energy's Advanced Scientific Computing 
Research program, also known as the ASCR program within the 
Office of Science.
    High-performance computing provides a platform for 
breakthroughs in all scientific research and accelerates 
applications of scientific breakthroughs across our economy. 
Progress in computing has paved the way for breakthroughs in 
medical imaging, genetics research, manufacturing, engineering, 
and weapons development. Faster computing speeds have 
revolutionized the energy sector, improving the efficiency of 
energy production and aiding in distribution technologies. 
Advances in modeling and algorithm development offer 
opportunities for scientific discovery in fields where 
experiments are too difficult, too costly, or too dangerous to 
conduct. They are reducing costs and opening the door to more 
innovative discoveries.
    The work underway in the ASCR program drives breakthroughs 
in high-performance computing. The Department of Energy's 
national labs host world-class computational science 
facilities, and the Department funds the applied mathematical 
and computational science research that will drive the next 
stage of advancement in this field.
    As we face the reality of ongoing budget constraints in 
Washington, it is our job in Congress to ensure that taxpayer 
dollars are spent wisely on innovative research that is in the 
best national interest and provides the best chance for broad 
impact and long-term success. The basic research conducted 
within the ASCR program clearly meets this requirement. High-
performance computing can lead to scientific discoveries, 
economic growth, and will help maintain America's leadership in 
science and technology.
    I want to thank the witnesses in advance for participating 
in today's hearing and look forward to further discussion.
    [The prepared statement of Mr. Weber follows:]

         Prepared Statement of Subommittee Chairman Randy Weber

    Good morning and welcome to today's Energy Subcommittee hearing 
titled ``Supercomputing and American Technology Leadership.''
    Today, we will hear from a distinguished panel of witnesses about 
the importance of high performance computing to American technological 
competitiveness, specifically focusing on the Department of Energy's 
Advanced Scientific Computing Research program, also known as the 
``ASCR'' program within the Office of Science.
    High performance computing provides a platform for breakthroughs in 
all scientific research, and accelerates applications of scientific 
breakthroughs across our economy. Progress in computing has paved the 
way for breakthroughs in medical imaging, genetics research, 
manufacturing, engineering, and weapons development. Faster computing 
speeds have revolutionized the energy sector, improving the efficiency 
of energy production and aiding in distribution technologies. Advances 
in modeling and algorithm development offer opportunities for 
scientific discovery in fields where experiments are too difficult, 
costly, or dangerous to conduct, reducing costs and opening the door to 
more innovative discoveries.
    The work underway in the ASCR program drives breakthroughs in high 
performance computing. The Department of Energy's national labs host 
world-class computational science facilities, and the department funds 
the applied mathematical and computational science research that will 
drive the next stage of advancement in this field.
    As we face the reality of ongoing budget constraints in Washington, 
it is our job in Congress to ensure that taxpayer dollars are spent 
wisely, on innovative research that is in the national interest, and 
provides the best chance for broad impact and long-term success. The 
basic research conducted within the ASCR program clearly meets this 
requirement. High performance computing can lead to scientific 
discoveries, economic growth, and will maintain America's leadership in 
science and technology. I thank the witnesses for participating in 
today's hearing and look forward to further discussion.

    Chairman Weber. I now recognize Ranking Member Johnson for 
an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I thank 
you for holding this hearing. And I want to thank our very 
excellent panel of witnesses for their testimony and being here 
today.
    America has historically been a leader in advancing new 
energy technologies, as well as the fundamental sciences of 
physics, chemistry, engineering, mathematics, and computational 
science that support energy innovation. But our leadership in 
technology is challenged by the growing investments of other 
countries in education and research, investments that are now 
predicted to quickly outpace our own investments here at home.
    High-performance computing or supercomputing is one area 
that we have led in for decades and the United States currently 
holds more than 45 percent of the 500 fastest supercomputers in 
the world. These computers are capable of processing vast 
amounts of data and mathematical equations at amazing speeds.
    In the past, high-performance computers were needed 
primarily for specialized scientific and engineering 
applications. Now, as we enter the world of big data where 
thousands of devices all around us are generating millions of 
bytes of data to be analyzed, high-performance computing is 
needed not just by scientists and government researchers but by 
many civic and commercial enterprises as well.
    Public policies play a critical role in supporting the 
advancement of high-performance computing and in enabling our 
society and economy to directly benefit from this capability. 
Our policies allow researchers and private industry to access 
the Department of Energy's computing systems, which are some of 
the most powerful in the world. We set policies that support 
the development of the software necessary to operate and 
optimize the use of high-performance systems, software that is 
unlikely to be developed by private industry because the 
potential sales market is too small to support the initial 
research and development costs. And our policies ensure that 
our investments in new computer architectures are diverse and 
flexible enough to meet our national security needs, in 
addition to our research and private industry needs. Federal 
investments in high-performance computing open this technology 
up to the future development of proprietary products. They grow 
our technology economy and they advance our technological 
leadership internationally.
    Now, while every witness on this panel is extremely 
distinguished and I am grateful that each of you could be here 
today, I hope you won't mind if I thank Dr. Augustine in 
particular for taking time to speak with us this morning as he 
has been a great friend to this Committee for well over a 
decade. As a former Chairman of Lockheed Martin and the Chair 
of the National Academy of Sciences Committee that produced the 
seminal Rising above the Gathering Storm report in 2005, he has 
a broad and deep perspective on the challenges facing our 
Nation in research and technological innovation. That report 
laid the foundation for one of our Committee's landmark 
bipartisan achievements, the America COMPETES Act of 2007, 
which we reauthorized in 2010 and I hope the next 
reauthorization is a top priority for the Committee and this 
Congress.
    I look forward to hearing Mr. Augustine's thoughts and 
indeed those of all of our witnesses on where we need to go in 
scientific research and innovation to grow our economy and to 
improve the quality of life for all Americans. Working 
together, our Committee has the opportunity to renew our 
commitment to scientific and technological leadership by our 
actions, and I look forward to any input our panelists have 
toward that goal.
    With that, I thank you for coming and I yield back the 
balance of my time.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology

                  Ranking Member Eddie Bernice Johnson


    Thank you Chairman Weber for holding this hearing, and I 
also want to thank this excellent panel of witnesses for their 
testimony and for being here today.
    America has historically been a leader in advancing new 
energy technologies, as well as the foundational sciences of 
physics, chemistry, engineering, mathematics, and computational 
science that support energy innovation. But our leadership in 
technology is challenged by the growing investments of other 
countries in education and research; investments that are now 
projected to quickly outpace our own investments here at home.
    High performance computing, or supercomputing, is one area 
we have led in for decades, and the U.S. currently hosts more 
than 45% of the 500 fastest supercomputers in the world. These 
computers are capable of processing vast amounts of data and 
mathematical equations at amazing speeds. In the past, high 
performance computers were needed primarily for specialized 
scientific and engineering applications. Now, as we enter the 
world of `big data', where thousands of devices all around us 
are generating millions of bytes of data to be analyzed, high 
performance computing is needed not just by scientists and 
government researchers, but by many civic and commercial 
enterprises as well.
    Public policies play a critical role in supporting the 
advancement of high performance computing, and in enabling our 
society and economy to directly benefit from this capability. 
Our policies allow researchers and private industry to access 
the Department of Energy's computing systems, which are some of 
the most powerful in the world. We set policies that support 
the development of the software necessary to operate and 
optimize the use of high performance systems--software that is 
unlikely to be developed by private industry because the 
potential sales market is too small to support the initial 
research and development costs. And our policies ensure that 
our investments in new computer architectures are diverse and 
flexible enough to meet our national security needs, in 
addition to our research and private industry needs. Federal 
investments in high performance computing open this technology 
up for future development of proprietary products, they grow 
our technology economy, and they advance our technological 
leadership internationally.
    Now, while every witness on this panel is extremely 
distinguished and I am grateful that each of you could be here 
today, I hope you won't mind if I thank Dr. Augustine in 
particular for taking time to speak with us this morning, as he 
has been a great friend to the Committee for well over a 
decade. As the former Chairman of Lockheed Martin and the Chair 
of the National Academy of Sciences Committee that produced the 
seminal Rising Above the Gathering Storm report in 2005, he has 
a broad and deep perspective on the challenges facing our 
nation in research and technological innovation. That report 
laid the foundation for one of our Committee's landmark 
bipartisan achievements, the America COMPETES Act of 2007, 
which we reauthorized in 2010, and I hope the next 
reauthorization is a top priority for the Committee in this new 
Congress.
    I look forward to hearing Mr. Augustine's thoughts--and 
indeed those of all of our witnesses - on where we need to go 
in scientific research and innovation to grow our economy and 
to improve the quality of life of all Americans. Working 
together, our Committee has the opportunity to renew our 
commitment to scientific and technological leadership by our 
actions, and I look forward to any input our panelists have 
towards that goal.
    With that, I thank you all for coming, and I yield back the 
balance of my time.

    Chairman Weber. I thank the lady, and if there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    Chairman Weber. At this time I would like to introduce our 
witnesses. Our first witness, who comes with high 
commendations, is Mr. Norman Augustine, Board Member of the 
Bipartisan Policy Center. Mr. Augustine served as the 
Undersecretary of the Army and later as acting Secretary of the 
Army from 1975 to 1977. Mr. Augustine also served as the 
President and CEO of Lockheed Martin until he retired in 1997. 
He has been a member of advisory boards to the Department of 
Homeland Security, Energy, Defense, Commerce, Transportation, 
and Health and Human Services, as well as NASA, Congress, and 
the White House.
    Is there any other--are there boards that you weren't a 
member of, Mr. Augustine?
    Our second witness today who is actually joining us by 
video is Dr. Roscoe Giles, Chairman of the Advanced Scientific 
Computing Advisory Committee at the Department Of Energy and a 
Professor at Boston University. Dr. Giles has served in a 
number of leadership roles in the community, including Member 
of the Board of Associated Universities Incorporated, Chair of 
the Boston University Faculty Council, and General Chair of the 
SC conference in 2002. Welcome, Dr. Giles.
    Dr. Giles. Thank you.
    Chairman Weber. Our next witness today is Mr. David Turek, 
Vice President of Technical Computing at IBM. Previously Mr. 
Turek--am I saying that name correctly? Okay. Previously, Mr. 
Turek helped launch IBM's grid computing business and ran IBM's 
Linux cluster business. He also helped lead IBM's initiative in 
support of the U.S. Accelerated Strategic Computing Initiative 
at Lawrence Livermore National Laboratory, which I believe is 
in Mr. Swalwell's district.
    Mr. Swalwell. That is right.
    Chairman Weber. Yes. So welcome.
    Our final witness today is Dr. James Crowley, Executive 
Director at the Society for Industrial and Applied Mathematics. 
Dr. Crowley has held this position since 1995. Prior to this, 
he served in the Air Force for 22 years retiring as Lieutenant 
Colonel. Dr. Crowley is a fellow of the American Mathematical 
Society and a fellow of the American Association for the 
Advancement of Science.
    In order to allow time for discussion, please limit your 
testimony to five minutes, we ask the witnesses, and your 
entire statement will be made part of the written record.
    I now recognize Mr. Augustine for five minutes to present 
his testimony.

               TESTIMONY OF MR. NORMAN AUGUSTINE,

             BOARD MEMBER, BIPARTISAN POLICY CENTER

    Mr. Augustine. Well, thank you very much, Chairman Weber, 
Ranking Member Johnson, and Members of the Subcommittee, and 
thank you, Ranking Member Johnson, for all those kind words.
    I am particularly appreciative that this Committee is going 
to devote some time to the topic at hand and certainly high-
performance computing is a key element of research.
    I will submit a statement for the record.
    I would like to begin by offering a few words about the 
basic nature of research. It is through research that new 
knowledge is created that permits engineers like myself to 
translate that research, knowledge into products and services 
that, working with entrepreneurs, can go into the marketplace 
and improve people's lives. We often think of Apple, the great 
things it has done, deservedly. Think of the iPod, iPads, and 
so on. But it wasn't Apple that made those things possible; it 
was researchers working decades ago on such things as quantum 
mechanics and material sciences, solid-state physics, and so 
on.
    One of the things about basic research in particular is 
that you can't know or priority what will be the outcome of it 
and that sure makes it particularly difficult in your roles, to 
build support for it, yet there are so many examples of where 
basic research that was curiosity-driven led to greater 
improvements in people's lives. Three things that come to my 
mind, one is research on seals in Antarctica that led to a 
surgical procedure that saved the lives of many children 
undergoing lung surgery. Another was study of the chemistry of 
butterfly wings of that led to an ingredient that is used in 
chemotherapy. Still another of course would be the accidental 
discovery of penicillin when someone was studying research on 
bacteria many, many decades ago, Sir Alexander Fleming.
    I would like to quickly touch on the importance of research 
and I will cite three areas where I think it has particularly 
had an impact. One is on the creation of jobs and there is 
evidence that if you want to one percentage point to the 
average number of jobs in America, you have to add about 1.7 
percentage points to the GDP of America. There have been a 
number of studies, one of which was the basis of a Nobel Prize 
and it has shown that between 50 and 85 percent of the growth 
of GDP in our country during the last half-century is directly 
attributable to advancements in two fields: science and 
technology. And of course those advancements are entirely 
dependent upon research.
    Health is an example. In the last century life expectancy 
in the United States grew from 47 to 79 years. In fact, I am 79 
years old so this is really important to me. The life 
expectancy gain that came about was in considerable part 
attributable to advancements in biomedical research.
    A third example is things that we take for granted in our 
everyday life, be they television, electric cars, DVDs, GPSs, 
CAT scans, or what have you, are dependent upon the knowledge 
that came through basic research.
    Touching briefly on high-performance computing, it impacts 
field across the entire technological spectrum. My own field of 
aerodynamics is an example, another would be genomics, high-
energy physics. It truly is of broad importance.
    The Department of Energy, as you know, operates 17 
laboratories. They are able to do things that industry really 
can't do under the pressures of today's marketplace for quick 
returns, financial returns. The examples, things that they 
could do so well are high-risk, high-return payoff research or 
long-term research, large research projects. They are 
particularly well suited to that. And work in the past, for 
example, sponsored by the Department of Energy on hydraulic 
fracturing, as you know, has had an enormous impact today in 
the political world, as well as the economic world.
    How are we doing in the United States in research? The 
answer has to be not very well. Research funding as a 
percentage of GDP of the United States has dropped from 1st 
place to 7th place in the last decade or so. The fraction of 
research in a country that is sponsored by the government, 
United States is down in 29th place. As a fraction of GDP--R&D 
to GDP we are in 10th place now. In five years China is very 
likely to pass us in research in the absolute sense and as a 
fraction of GDP.
    Finally, I would note that H.R. 5120 that was introduced 
last year contributes in a major way to solving what I think 
are some of the problems we have at translating the research 
that goes on in the DOE laboratories to the commercial sector, 
and I would be happy to address that further should the 
Committee wish. Thank you very much.
    [The prepared statement of Mr. Augustine follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Augustine.
    And now, we recognize Dr. Giles.

            TESTIMONY OF DR. ROSCOE GILES, CHAIRMAN,

               DOE ADVANCED SCIENTIFIC COMPUTING

                       ADVISORY COMMITTEE

    Dr. Giles. Thank you, Chairman Weber, and Ranking Member 
Johnson, and Members of the Committee. Thank you for inviting 
me to testify today and thanks for your support of the 
outstanding scientific and technical activities we are here to 
discuss.
    The Advanced Scientific Computing Advisory Committee, 
ASCAC, which I chair, is a panel of experts that advises DOE 
under FACA rules about activities of the Office of Advanced 
Scientific Computing Research, ASCR. My testimony is largely 
based on ASCAC reports. I will address the value of research 
supported directly and indirectly by ASCR and also the 
technological challenges and rewards represented by U.S. 
leadership in this field.
    The computing needs of science have grown exponentially, 
paralleling the exponential increases in computer power we have 
seen in recent decades sometimes pushing the computer industry 
for new capabilities and sometimes finding novel ways to 
exploit existing technology. The combination of computing power 
and the ability to transport, store, and learn from vast 
amounts of data is critical to U.S. leadership in a wide range 
of scientific and technical fields.
    ASCR has enabled DOE scientists to harness unprecedented 
computing power to better understand the physical world, design 
new materials and devices, and engineer new and improved 
methods for energy production, utilization, and distribution. 
Recent examples include microscopic modeling of nuclear reactor 
core startup that can improve reactor efficiency and safety; 
simulations of complex combustion making the chemistry and 
physics of fluids and gases to the observed behavior of engines 
and reactor; predictive modeling of materials for lithium air 
batteries systems potentially able to store 10 times as much 
energy as lithium ion batteries; wheat genome sequencing 
previously impossible to do is now possible in under 32 seconds 
using new programming methods developed by ASCR; and modeling 
the surface of human skin to understand its properties and how 
chemicals might affect it. My written testimony includes many 
additional examples.
    ASCR enables such outcomes by designing and deploying an 
effective system of world-class facilities for computing, data 
science, and networking in DOE labs making available expert 
staff to work with scientists to push the envelope of 
applications and supporting research in computer science in 
applied mathematics leading to key advances in software, 
hardware, algorithms, and applications.
    Success also depends on a knowledgeable workforce and an 
educational pipeline to create that workforce. ASCR supports 
both training programs for scientists and the renowned 
Computational Science Graduate Fellowship program, CSGF. ASCR 
nurtures all elements of the ecosystem for scientific 
computing.
    What about the future? ASCR has consistently provided 
leadership to DOE, the Nation, and the world by accelerating 
the development of new computing capabilities that can 
transform science. When I last appeared before this 
Subcommittee in May of 2013, we testified about the importance 
of funding the development of exascale computing and the 
dangers to U.S. leadership in computational science if we fail 
to move expeditiously. Since that time, the urgency has 
increased, as has our knowledge of how to proceed.
    In February 2014, ASCAC reported to DOE on the top 10 
exascale research challenges. This report reflected the 
progress since our earlier 2010 exascale report. In addition to 
identifying the 10 challenges, our expert panel emphasized both 
that the United States has the technical foundation to address 
and overcome them and that it is critical that we do so.
    In August 2014 the Secretary of Energy Advisory Board Task 
Force on Next-Generation Computing, of which I was a 
participant, made public in its draft report, which included 
the recommendation that DOE move forward with next-generation 
computing at the exascale level. The report also endorsed 
continued use of the co-design process and of government-
industry-academic partnering mechanisms. ASCR, in collaboration 
with the National Nuclear Security Administration, has 
developed the preliminary plan for such an exascale computing 
initiative. This plan was provided to ASCAC for review last 
November. This review is actively in process with the resulting 
report due in September 2015 and an interim report at the end 
of March.
    I think it is more important than ever for the United 
States to maintain and extend its leadership in scientific 
computing. I hope that our presence here today will help to 
that end. Thank you very much.
    [The prepared statement of Dr. Giles follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Dr. Giles.
    And, Mr. Turek, you are now recognized for five minutes.

         TESTIMONY OF MR. DAVID TUREK, VICE PRESIDENT,

                    TECHNICAL COMPUTING, IBM

    Mr. Turek. Good morning, Chairman Weber, Ranking Member 
Johnson, and Members of the Subcommittee. Thank you for the 
opportunity to speak with you about the Office of Science ASCR 
program, supercomputing, and American technology leadership.
    I have been involved in many of IBM's activities and 
supercomputing over the last 25 years. During that time, I have 
worked closely on supercomputing projects with both the Office 
of Science and NNSA such as ASCI White, Blue, and Purple 
systems at Lawrence Livermore; the Blue Gene systems, Mira, and 
Sequoia at Argonne and Livermore respectively; the Roadrunner 
system at Los Alamos; and as well as key software projects at 
Pacific Northwest National Lab. I have witnessed firsthand the 
magnitude of innovation possible courtesy of the collaboration 
between private industry and the national labs.
    I would like to pose today three questions with respect to 
the linkage between supercomputing and technological 
leadership. First, why be concerned about supercomputing 
leadership? The Council on Competitiveness has stated that to 
out-compete you must out-compute. I believe this to be true. 
Supercomputers, as the other panelists have said, are tools for 
inside strategic advantage with broad and diverse application 
in areas such as oil discovery, fraud detection, efficient 
automobile and aerospace design, and even many areas of basic 
science. It is nearly axiomatic that better supercomputers give 
one a chance for more insight and greater advantage than those 
with lesser supercomputers. That is why you see the Europeans, 
the Chinese, the Japanese, and others making a concerted push 
through public funding of major supercomputer projects. They 
want to out-compete us.
    But there is a fundamental understanding we must also have. 
Supercomputers are nothing without the software programs and 
applications that run on them and software engineers only want 
to produce software for the best machine, not the second, 
third, or fourth best. Without the best supercomputers 
available in the United States, software developers will 
migrate to develop their innovations elsewhere. Once that trend 
starts, it is very hard to stop or reverse. It is much more 
costly to catch up than it is to stay ahead.
    The second question is what technology problems are in the 
way of maintaining leadership? The first problem is the need to 
make supercomputers more energy efficient. The fastest Western 
economy-based supercomputers in the world today consume about 
10 megawatts of energy or $10 million a year. As supercomputers 
get bigger and more powerful, without some real breakthroughs, 
by the beginning of the next decade the energy bill could 
easily be 100 megawatts or $100 million to run. This means the 
cost of energy will begin to overtake the cost of the computer 
itself, that becoming a limiting factor in supercomputer usage. 
A slowdown in usage will ultimately correlate with a slowdown 
in innovation and impact economic competitiveness.
    The second problem is how to handle huge amounts of data. 
It is clear that the explosive growth of data is challenging 
some of the fundamental design principles of supercomputers. 
For example, 500 e-books is about a billion bytes of data. With 
today's technology, that amount of data can be moved through a 
computer network in a matter of minutes or less. But suppose we 
multiplied that amount of data by a million? That would 
represent the amount of data many supercomputers are working on 
today and in short order there will be problems a thousand 
times beyond that.
    Old design principles don't solve this problem. We cannot 
simply do what we did in the past at greater scale to fix this. 
The temptation, therefore, would be to ignore portions of data 
to make the problem more tractable, but data left unanalyzed is 
insight undiscovered, so we have to find ways to make future 
supercomputers more accommodating to the vast amounts of data 
they will be asked to explore. New innovations are requiring 
networking, memory design, storage innovation, and data 
management software to remedy this circumstance.
    The third problem is application software. Most application 
software running on supercomputers today are based on 
mathematical approaches more than 40 years old, which is the 
last time there was a major systematic government investment in 
new algorithms. The software is now horribly mismatched to 
modern supercomputers simply because 40 years ago no one could 
have guessed what today's supercomputers would look like. 
Access to modern software and new algorithms will have a 
dramatic impact on the utility of modern supercomputers. There 
must be a plan to modernize application software. There is no 
silver bullet to solve these problems. Inventions required to 
maximize impact, all the problems must be addressed in concert.
    The third question is what needs to happen to maintain 
leadership? From my experience, collaboration with the national 
labs has been a proven means to stimulate innovation in 
supercomputers. The labs work on problems of such complexity 
they always stretch the limits of computing technology. In 
fact, a crude rule of thumb is the computing requirements of 
the national labs are about five to seven years advanced over 
the rest of the market. Finding the ASCR program will present 
the opportunity to address the problems I described and 
contribute to maintain the pace of innovation competitiveness 
demands. If this commitment is made, U.S. leadership in 
supercomputing should be preserved for years to come.
    Thank you very much and I would be happy to answer your 
questions.
    [The prepared statement of Mr. Turek follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you, Mr. Turek.
    And now, Dr. Crowley, you are recognized for five minutes.

      TESTIMONY OF DR. JAMES CROWLEY, EXECUTIVE DIRECTOR,

         SOCIETY FOR INDUSTRIAL AND APPLIED MATHEMATICS

    Dr. Crowley. Good morning, Chairman Weber, Ranking Member 
Johnson, and Members of the Committee.
    As noted in my introduction, I am Executive Director of the 
Society for Industrial and Applied Mathematics, or SIAM. SIAM 
comprises over 14,000 members who work in industry, government 
and national labs, and in academia. They represent over 500 
universities, corporations, and research organizations from 
around the world. SIAM is dedicated to solving real-world 
problems through applied mathematics and computational science.
    Thank you very much for allowing me to testify and for 
highlighting the critical work of the Department of Energy's 
Office of Science and its Advanced Scientific Computing 
Research program. SIAM greatly appreciates your Committee's 
continued leadership on, and the recognition of, the critical 
roles of the Office of Science and ASCR in enabling a strong 
U.S. economy, workforce, and society through mathematical, 
scientific, and engineering research relevant to the DOE 
mission.
    The Office of Science supports basic research to address 
pressing challenges in energy, computing, physical sciences, 
and biology and this support has been critical to the applied 
mathematics and computational science community.
    I wish to focus on three topics: ASCR support for 
mathematical and computational science research, the potential 
benefits of exascale and the technological challenges to reach 
it, and finally workforce and training needs. First, the role 
of ASCR in supporting key mathematical and computational 
research.
    ASCR supports the development of new modeling simulation 
and data tools to help researchers solve scientific and energy 
challenges. Modern life as we know it, from search engines like 
Google to the design of modern aircraft, would not be possible 
without the unique contributions of mathematicians and 
computational scientists. Likewise, DOE depends on mathematical 
and computational techniques to make predictions, model and 
simulate systems that would be costly or impossible to 
experiment on, and manage and make sense of ever-growing data 
that is produced by scientific experiments such as DOE's 
particle accelerators and light source facilities.
    The Nation faces critical challenges in energy efficiency, 
renewable energy, future energy sources, and environmental 
impacts of energy production and use. These challenges all 
involve complex systems such as the power grid or the U.S. 
nuclear stockpile. Mathematical and computational tools help us 
model and understand these systems, design new solutions to 
problems, and predict the impact of new technologies. ASCR 
programs not only support new mathematical tools but also 
develop software so that DOE, industry, and the academic 
community can use these tools. And I note that the PETSc team 
at Argonne just was awarded the ACM SIAM prize in computational 
science and engineering and that shows the power of the people 
working at DOE.
    Second, I would like to address the possibilities and 
challenges of exascale. For all the advances that ASCR has 
already enabled, today, there are still challenges that are too 
complex for current computers to model. Exascale computing has 
the potential to spur revolutionary advances in modeling and 
simulation, expand our capacity to analyze complex systems in 
great detail, and capture more complexity with better 
predictive abilities than ever before.
    I will note that the investments in modeling, algorithm 
research, and software development are essential to realizing 
the full benefits of exascale computers so that we can use 
these machines to solve pressing scientific and energy 
challenges. It is not just the hardware; the computer science 
and the math are essential.
    Finally, I would like to discuss an important workforce 
development program within ASCR. Researchers trained to use 
high-performance computers to solve key scientific challenges 
are central to DOE's mission. The Computational Sciences 
Graduate Fellowship program is a critical program that 
maintains the pipeline of this workforce by supporting the 
training of new scientists and engineers with strong 
computational research experience and close ongoing ties to DOE 
and the national labs. The CSGF has a long history of success 
at DOE and SIAM strongly supports its continuation.
    I thank you again for the opportunity to provide this 
testimony today and I am happy to answer any questions. I have 
provided additional details in my written testimony. Thank you.
    [The prepared statement of Dr. Crowley follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Weber. Thank you. I thank the witnesses for their 
testimony. Members are reminded that the Committee rules limit 
the questioning to five minutes and the Chair recognizes 
himself for five minutes.
    Good grief, where do we start? You all have just raised a 
whole bunch of questions. Dr. Crowley, can you provide an 
overview in plain English so our constituents can understand? 
You kind of went through it there toward the end of what ASCR 
program does but why is it important to the U.S. economy?
    Dr. Crowley. The tools that are provided for modeling and 
simulation are used across--I gave you the example of the 
award--the prize that went to the PETSc team at Argonne 
National Lab. PETSc is a team that has developed computational 
tools for high-performance computers. These tools are used by 
industry that do modeling and simulation for advancing 
materials, some of the things that Roscoe Giles mentioned, and 
without those tools, one can't use the computers efficiently to 
do that. And so it is the research into not only developing the 
tools that the people can use the computers but also the models 
that run on them.
    I mean to take an example that is not necessarily a DOE 
model but just looking at one that came home to me recently 
because of the weather prediction in Philadelphia that almost 
kept me from coming here, this latest snowstorm missed 
Philadelphia but it was predicted to dump more than a foot of 
snow on us. Improved modeling, better tools, and higher 
performance computing would have made that ability to make 
those predictions much better. And that same thing applies for 
any other kind of thing that is modeled across science and 
engineering, that with better tools for modeling, better 
computational tools, we can advance our ability to produce 
better materials, to simulate anything that we need--and 
understand better scientific things in fusion or in any other 
area.
    Chairman Weber. Okay. I think it was you that said that the 
algorithms or the math that was used 40 years ago--it was Mr. 
Turek so this question is probably for you--couldn't predict or 
you couldn't see what computers look like today. What did you 
say about that?
    Mr. Turek. Yeah, what I meant by that was that at that time 
frame, the nature of what was considered to be a supercomputer 
bears no resemblance to the kinds of computers that exist 
today, so people designed the algorithms and the corresponding 
software to map to that kind of computer. Those approaches 
don't translate well over four decades to the kinds of things 
we are doing today.
    Chairman Weber. So here is my question. Do we have the 
capability today to look out 40 years in the future and predict 
how effective those algorithms will be or will there be new 
techniques? With advanced computing today are we able to look 
out 40 years in the future?
    Mr. Turek. Nobody can look out 40 years correctly. However, 
what I would say is that we know that many of the algorithms 
and the software implementations today are obsolete for what we 
are trying to do. The way to characterize it would be the 
following: Today's modern supercomputers typically use order of 
millions of microprocessors. Many of the algorithms and the 
software implemented only scale to maybe a handful of hundred 
of microprocessors not because it can be done; it is because it 
is a byproduct of the fact that that invention is 40 years old. 
A reinvestment in algorithmic development, the fundamental 
mathematics and the associated software, has been demonstrably 
proven in places like Argonne, Lawrence Livermore, and Oak 
Ridge that these approaches to common problems can be modified 
to accommodate this nature of supercomputing we have today. You 
would have a material effect on dramatically improving the 
insight that people gain from the application of the 
supercomputing tool.
    Chairman Weber. Is part of the aim of ASCR, for example--
because we hear a lot in today's society about hacking and so 
we invest the money and I am a great believer that we need to 
be on the cutting edge because it helps national security, for 
example, but are we at risk with supercomputing of investing 
money, time, and resources, and then having that technology 
stolen from us by other countries
    Mr. Turek. So there is this notion of internationalism if 
you will, but I would characterize it this way: The Chinese 
program is very parochial to China. The European program is 
very parochial to Europe and they are making investments that 
are very much wedded to the parochial interests of companies 
and institutions in those geographies. There is always the 
chance that through regular commerce or more nefarious means 
technology can escape geographic boundaries, but I think the 
deployment of technology in the economy is what really makes a 
difference, so the more supercomputing that can be made 
available, the more and diverse kinds of people who can get 
access to it and use it is what really spurs the economic kind 
of innovation we have all alluded to here today.
    Chairman Weber. Yeah. Well, I appreciate that. And I am out 
of time so the Chair will now recognize Ranking Member Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I am so delighted we have such able witnesses today and I 
know that this hearing is focused on our investments in 
supercomputing research in particular, but I would like to take 
advantage of your presence, Mr. Augustine, to ask a few broad 
questions to help us guide the future in how we are able to 
continue research, whether or not we are producing the 
researchers. In 2005 the National Academies' Gathering Storm 
Panel, which you chaired, recommended increasing science agency 
budgets by ten percent annually.
    The 2007 COMPETES bill, which was very graciously accepted 
and supported by President Bush, had bipartisan support for a 
positive growth trajectory of R&D, and unfortunately, 
appropriations for the last eight years have not come close to 
keeping up with what was projected. It was changed to a more 
conservative recommendation to at least four percent annually 
in 2014.
    In the current budgetary and political environment, how 
would you continue to make the case for increased funding for 
R&D to politicians across the political spectrum? And what do 
you believe are the consequences if we do not even achieve this 
modest four percent annual growth target for federal investment 
in basic research and development? And, finally, do you believe 
that a robust reauthorization of America COMPETES should be a 
top priority for this Committee this year?
    Mr. Augustine. Well, thank you for that question.
    Chairman Weber. Mr. Augustine, turn your mike on, please.
    Mr. Augustine. I thought it was on.
    Chairman Weber. Oh, there you go.
    Mr. Augustine. Sorry. To deal with the last part of your 
question first, I think America COMPETES is perhaps the most 
important thing that this Committee could take on. It drew more 
attention to the problems we face in this area and took further 
steps to improving the situation than anything else I am aware 
of that we have done. So I would strongly urge that.
    With regard to the status of the research and where we have 
come since the various reports that you allude to, the bad news 
is that we are declining in our investment in research as a 
percentage of GDP. Other countries are growing. Even at NIH, 
which is--research there is strongly favored by the American 
public--we have seen a 22 percent cut in the last decade in 
real dollars and it is continuing to decline. This of course 
discourages young people from going into research and basically 
it means that we are going to have a lower quality of life, 
impact on our health will be very real, and the economy today 
is so heavily dependent on technology that without doubt we 
will be hurt economically seriously.
    I would cite an example from my own field of the impact of 
research and particularly high-performance computing. I am an 
aerodynamicist, design airplanes, among other things. The way 
we used to design airplanes when I was early in my career was 
built giant wind tunnels. We built them when they were plugged 
into the Tennessee Valley Authority by and large because that 
was the only place we could get enough power. We ran them at 
night we didn't shut down the lights in the southern part of 
the country.
    Today, we don't use wind tunnels. We put the airplane and a 
high-performance computer if you will, use a mathematical model 
and within a nanosecond have the answers that we are 
researching, just one example of the enormous impact that 
investment in technology can have and also the negative impact 
of not investing in science, research, and technology.
    Ms. Johnson. Well, thank you very much.
    The National Research Council report entitled ``Rising to 
the Challenge: U.S. Innovation Policy for the Global Economy,'' 
states the assumption that the output of the U.S. innovation 
process will be captured by U.S.-based industry has been 
rendered obsolete by globalization, and that knowledge created 
through federally funded research at universities and national 
laboratories can be commercialized and industrialized virtually 
anywhere. The report goes on to say that a more comprehensive 
innovation policy is needed to anchor new and existing 
companies here in the United States.
    The American Academy of Arts and Sciences panel that you 
recently chaired addressed some of this issue in a report 
released this fall. What recommendations do you have for what 
federal policies are necessary to ensure that U.S. companies 
benefit from U.S. innovation?
    Mr. Augustine. Well, thank you for that question. And as 
you point out, research is a global commodity or global asset, 
and it raises a question why not just let others do the 
research and then apply their research? The answer, I would 
cite Craig Barrett, who ran Intel some years ago. Craig says 
that on the last day of any calendar year 90 percent of the 
revenues that Intel receives are for products that didn't exist 
on the first day of the calendar year, and so the only answer 
to your question that I can see is that we just have to be 
faster than others in applying the results of research. We have 
got to be fast.
    And your question what do we do about it and the answer is 
remove every bureaucratic obstacle, every obstacle we can think 
of, particularly in technology transfer from the labs, that 
causes time delay because time is everything.
    Ms. Johnson. Thank you very much. My time has expired. 
Thank you.
    Chairman Weber. Thank you.
    And the Chair now recognizes the Vice Chairman of this 
Committee, Congressman Newhouse.
    Mr. Newhouse. Thank you very much, Mr. Chairman. I 
appreciate that and appreciate you gentlemen being here this 
morning and talking about this very important subject. It is 
certainly enlightening me as to the nature of our 
responsibility here.
    Not to let you dominate the program this morning, Mr. 
Augustine, but a question that arose in my mind after reading 
through your testimony that a lot of the body of research at 
our national laboratories is maybe not being utilized as much 
as it could be so to speak, not to put words in your mouth, but 
there are certain obstacles that stand in the way of getting 
that research to industries. So could you talk a little bit 
about maybe what you see as solutions to that issue that we 
have? Is it communication, some of the conflict-of-interest 
issues that you mentioned, and those kinds of things?
    Mr. Augustine. Well, thank you, Congressman Newhouse, for 
that question. And I do believe that the Nation doesn't begin 
to benefit from the asset that our national labs represent. It 
certainly benefits importantly but it could be so much more, 
and the reason for that is that we need to do a better job of 
getting knowledge out of the laboratories and into industry so 
that we can commercialize and distribute the results.
    And as to impediments, there are many. One that certainly 
stands in my mind is that firms simply don't know what is going 
on in the national laboratories. They tend to be rather 
isolated. And we could do a much better job of letting people, 
industry, know what is happening at the laboratories.
    Secondly, the best way to transfer technology that I have 
ever been able to find is by transferring people. You move the 
knowledge that is in their minds. And today, well-meaning 
conflict-of-interest laws make it very difficult to transfer 
people among industry, government, and academia. In my career I 
had the opportunity to put in two tours in government and today 
I doubt that I could do that under the conflict-of-interest 
laws that exist.
    A third one that I would cite is that we are very 
concerned, properly so, about favoring one firm over another. 
What do we do about it? Without taking a great deal of time, 
one is for the labs to do a better job of letting the world 
know what they are working on, the industrial world if you 
will. Other things that are cited in H.R. 5120, for example, 
giving the labs more latitude to create industry partnerships, 
give the labs more latitude to negotiate technology transfer 
agreements. These are a few of the things that could be done 
but I don't have answers to the conflict-of-interest one 
because obviously we don't want conflicts of interest. On the 
other hand, the inability to move people and to move ideas in 
and out of the labs is a huge burden on our country.
    Mr. Newhouse. Thank you. I appreciate that.
    Mr. Augustine. Thank you.
    Mr. Newhouse. Quickly, a question then perhaps for Mr. 
Turek and perhaps Dr. Giles as well. It is--my limited 
understanding is that the largest supercomputers are rarely 
able to operate at full capacity due to their complexity, some 
components almost always in need of attention or repair. If 
that is a true statement, could you tell me what is being done 
to improve the reliability of these systems and are we devoting 
enough resources to this aspect of advancement?
    Mr. Turek. I will take the first shot at it. We are doing a 
lot for that. A lot of that is actually handled by software so 
soft recoveries of problems. What you see with supercomputing 
are problems of scale. If you have a million parts of anything, 
the likelihood is you are going to see something failing pretty 
regularly, even if it is integrated circuits. It is a problem 
that has been understood for quite some time and principally is 
handled by software techniques to overcome it. So in the vast 
majority of cases you actually can get to full capacity if you 
have the software capability on the application level to 
utilize it. That is the bigger impediment right now. Again, 
most people who gain access to commercial software are gaining 
access to software that is archaically designed relative to the 
scale of the kinds of computers being built today and that is 
the limiting factor.
    Dr. Giles. Can I add something?
    Mr. Newhouse. Absolutely, Dr. Giles.
    Dr. Giles. I think that--yes, I think that also our sense 
of what the capacity of a system is reflects some of the 
archaic history in the sense that we often measure or think of 
a capacity is how much data can you sort of crunch, transform 
from one form to another, which is an artifact of the time when 
the critical component of a computer was the processor that 
made that transformation. Now, people are looking at systems 
with millions of processors and redundancy in processors is not 
a negative to have multiple processors comparing results one to 
another. So, as Mr. Turek said, there are lots of opportunities 
for new ways of ensuring the reliability of the final answers 
we get.
    And if we get discouraged about thinking about that 
problem, I would remind us all that our brains, with millions 
and millions of--and billions of neurons and interconnections 
have faults on the neuron level all the time and they don't 
materially affect the ultimate outcome, and I think we are in 
the process of building computers that can function more like 
that.
    Mr. Newhouse. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Weber. Thank you.
    And the Chair now recognizes Congressman Hultgren from 
Illinois for five minutes.
    Mr. Hultgren. Thank you all so much for being here. Thank 
you, Chairman. I especially want to thank the Chairman for 
working out a way for Dr. Giles to be with us remotely.
    I am very fortunate to represent Fermilab and I have 
Argonne right down the road from me. Because of this, I have 
been able to see the fruits that grow out of our Nation's 
commitment to basic curiosity-driven scientific research. The 
impacts of this research I believe are limitless. Just as we 
didn't go to the moon to invent Velcro, we didn't build 
particle colliders so that we could invent the magnet for our 
MRI machines.
    This topic, supercomputing, is close to home for me because 
physics is where big data began. Besides the maintenance of our 
nuclear stockpile, it is either astrophysics or high-energy 
physics that is driving the research necessary to build the 
most sophisticated computer networks we have today. Because of 
this, it was largely DOE that began the genome project before 
NIH realized it was a feasible endeavor. As interested as I am 
in technology transfer and local economic development, if our 
research enterprise is focused on the short-term photo op and 
press release-style research, which it appears the 
Administration is more prone to advance, we will lose out on 
the long-term benefits we all say we should be focused on. If 
we are going to stay at the forefront of technology or 
technological development, we must reaffirm our commitment to 
basic scientific research.
    Dr. Giles, in our previous hearing, you had a chance to 
review a draft copy of my legislation, which in the 113th House 
eventually passed, H.R. 2495, the American Supercomputing 
Leadership Act. My bill called for a lab-industry-university 
partnership to develop two different exascale machines. I 
wondered if you would be willing to describe what industry's 
role should be in such a partnership and then describe the 
benefits of having a university as part of this partnership?
    Dr. Giles. Yes, I would be happy to address that and some 
of my written testimony does get to that point. I think that 
ASCR's work has helped to start a virtuous cycle with industry, 
academia, and the labs in developing and looking forward to the 
path for exascale so that in collaboration with industry we are 
able to have government funds help to stimulate research and 
investigation in areas that are important for building the next 
generation scale of computers before that is actually 
competitive or something that is in the competitive spirit of 
the industry, but then industries impact is to help define what 
is sufficiently along the lines of work that they can build and 
build on into something that they would be interested in from 
their perspective, that we find an accommodation.
    In the co-design methodology that I mentioned represents 
the pattern of developing new software and algorithms as--in 
the context of hardware that is evolving and to help use those 
needs from the scientific community, from the universities and 
the labs to help define what kind of hardware makes sense so 
that the--this goes back to the idea of building an ecosystem 
that supports rapid advances in scientific computing that links 
together all those elements.
    I do want to thank you so much for the legislation you 
propose that we discussed last time and which made it out of 
the House, as I understand it, but not all the way through the 
end of the process. You know, I think it is a really important 
step that we explicitly fund the development of that next 
generation better systems.
    Mr. Hultgren. Thanks, Dr. Giles.
    Quickly, Mr. Augustine, I would first like to thank you for 
all of your work. You have been a leader in this and in so many 
other spaces, it is amazing. Thank you.
    I had the pleasure of sitting down with your colleague Dr. 
Neal Lane to discuss local economic development potential for 
the national labs in reference to the Restoring the Foundation 
report. Many of the recommendations from this discussion echoed 
my previous passed legislation, the DOE Labs Modernization and 
Technology Transfer Act, which the Bipartisan Policy Center 
listed in their doable items, which there aren't too many of, 
for the 114th Congress. I wonder if you could make a comment 
more generally on this bill and the needs and benefits for 
making the labs more nimble and open to the public?
    Mr. Augustine. Well, yes. One of the things that certainly 
relates to what you raise is that the labs are able to build 
major facilities that individual firms can't afford to build. 
Fermilab is a classic example. And if they are not available to 
the public or industry by and large, then we don't begin to get 
the value from them that we could get. Some of the legislation 
that you describe takes important steps in this regard.
    I guess I would say in terms of a broad answer--and I 
realize that we are running out of your time--that the bad news 
is that we spend, as I said, a 10th of a percent of the GDP on 
research. The good news is you could double that and only have 
to allocate a 10th of a percent of the GDP. And so the 
opportunity is probably there to make major changes.
    I go back to one of the studies that you refer to. We 
discovered that we spend more on potato chips in this country 
than we spend on research on clean energy. That just doesn't 
make sense.
    Mr. Hultgren. Well, again, I want to thank you all for 
being here.
    Thank you, Chairman.
    And real quick, just thank you, Dr. Crowley, too, for the 
shout-out to Argonne and the recent recognition there. That is 
fantastic. So thank you so much.
    Chairman, I yield back.
    Chairman Weber. Thank you, sir.
    The Chair now recognizes Mr. Massie from Kentucky.
    Mr. Massie. Thank you, Mr. Chairman.
    My question is really for anybody up there that cares to 
comment, but it seems like 20 years ago there was the 
apocryphal prediction that we would run out of available 
computing power with silicon, yet here we are still on silicon. 
What is the next step after silicon? And since we didn't run 
out of power with silicon how much further can we go on 
silicon?
    Mr. Turek, it looks like you are interested in answering 
that.
    Mr. Turek. I will take the first shot at least.
    We are at an apocryphal time and to a certain extent you 
could characterize the industry as putting a Band-Aid over this 
problem. So the limitations of silicon are embedded in physics. 
We are at those limits today. I think the last time I saw an 
advertisement on TV about buy a computer because the processor 
is faster was January 2001. You don't have a 10 gigahertz 
processor. You are never going to see one either because the 
physics are limiting.
    So instead what the industry has done is it has spewed out 
massive amounts of cores, lower-power compute elements that are 
ganged together to work in concert on the problems at hand. The 
problem is you don't get a linear scalability of the compute 
effect. So in other words, if I have four cores, I don't get 
four times the compute capability of one core. Maybe I get 2.5. 
And as I scale up to a million, I am not getting a million 
times; I am getting something far less than that.
    So we are Band-Aiding our way through this limitation at 
the physics level. There are more materials and so on that are 
coming forth and whether it is carbon nano tubes or something 
else, but physics is a limiting factor here.
    The way you deal with this ultimately is you look at the 
architecture of how these systems are put together and the 
composite set of technologies that let you deal with the 
problem. Advances in networking technology, memory systems, all 
these things need to be looked at in total to begin to push the 
ball forward but it is the real slog now. Believe me, in 1996 I 
knew how to build a Roadrunner system, not a problem; it was 
just a matter of hard work. That was the first petascale system 
on the planet. In 2005 I didn't know how to get to exascale and 
still struggle today. We are up against real limits.
    Mr. Massie. So does anybody else care to talk about that?
    Dr. Giles. Yes, just to add one quick observation. The 
Secretary of Energy Advisory Board Task Force considered very 
seriously this question about the relationship of what we are 
doing now to--for the future, and one of the things that became 
very clear is that because the limitations and the 
possibilities and opportunities are physics-based and the DOE 
labs are the premier research set of facilities for the 
physical sciences, that in some ways DOE with its computing 
interest and capability and the labs is in an excellent 
position to do the research needed to move beyond silicon and 
CMOS and what we are doing now to the next generation, whether 
that involves, as David said, superconducting technology or 
quantum technology, the labs are in a really good position to 
investigate.
    Mr. Massie. That was going to be my next question. So 
obviously we have already hit the physical limits of silicon 
and the speed of light and energy density and all that stuff, 
and we have Band-Aided that with architecture or maybe that is 
the way around it, but we have diminishing returns to putting 
more cores in there. What are the next promising platforms and 
what role will our research that we are paying for here in 
Congress play? What is the next transistor? What is going to be 
the next paradigm shift and what role does our research play in 
that?
    Mr. Turek. Well, I will make a brief comment. There is no 
silver bullet. There is nothing I can point to that says the 
problems of the future are done; we can simply move along as 
systematically as we have over the last 50 years or so. When I 
talk about architecture I mean different approaches to solve 
the problem.
    Today, one of the techniques that is being explored and 
reflected in the CORAL program at the DOE is the employment of 
accelerators, specialized processors attached to conventional 
processors to give an overall speed-up in compute capability. 
We pioneered this, by the way, with a cell processor at Los 
Alamos ten years ago, which was an accelerator-based kind of 
technology. That is a new idea. Accelerators have been thought 
of over many years but never gained acceptance because we could 
leverage the evolution of silicon to overcome the limits. No 
longer possible, now there is an embrace of accelerators. So 
you see a lot of different kinds of accelerators come into play 
and applied in very unique and interesting kinds of ways.
    Mr. Massie. Thank you very much. I am excited to see what 
the next breakthrough is. I realize there is no silver bullet 
and we have got to use a shotgun, but I trust that we will come 
up with something. Thank you.
    Chairman Weber. Thank you. And I thank the witnesses for 
their valuable testimony and the Members for their questions.
    The record will remain open for two weeks for additional 
comments and written questions from the Members.
    So thank you, gentlemen. Thank you, Dr. Giles. The 
witnesses are excused and the hearing is adjourned.
    [Whereupon, at 10:07 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
